U.S. Department of the Interior
Office of Inspector General



                              Advisory Letter
 Critical Infrastructure Assurance Program,
                   Department of the Interior




                                  Report No. 00-I-704
                                  September 2000
completion in the fall of 2000. We found that the Department had adequately identified the
critical assets and submitted its Critical Infrastructure Protection Plan (CIPP) to the National
Critical Assurance Office for review by an Expert Review
Team (ERT). The Department has taken or plans to take the actions necessary to incorporate
the ERT’s suggested improvements.

We also found, that the Department had not documented the results of the periodic reviews
regarding its threat environment.2 The Departmental Manual (375 DM 19.8) states:

         Each bureau will conduct periodic reviews of its Information Technology (IT)
         security program to determine its effectiveness and to re-certify the adequacy of
         the installed security safeguards. These reviews may use existing reports, such
         as those prepared for risk analyses, IT certifications, Privacy Act inspections,
         Departmental Management Control Evaluations, and Inspector General audits.
         The results of these reviews should serve as a basis for the annual bureau IT
         security Plan.

Departmental IT officials told us that these reviews were performed for each bureau but were
not documented. We believe that the review process should have included written notifications
to bureaus concerning the review, analysis, assessments, implementation of corrective actions,
and results of the review. In that regard, without adequate documentation of the review
process, there was no accountability for the actions taken.

Recommendations
We recommend that the Department’s Chief Information Officer (CIO):

    1. Ensure that the Department establishes and implements a requirement to document the
periodic threat review process that includes written notifications to bureaus concerning the
review, analysis, assessments, and implementation of corrective actions.

    2. Ensure that the CIPP is resubmitted to the ERT for approval.

Assistant Secretary for Policy, Management, and Budget
 Response and OIG Reply




2
 Threats can be external (from outside the organization) or internal (from employees or contractors).
Threats also are natural (earthquakes or hurricanes), accidental (equipment failure or operator errors), or
intentional (terrorists, hackers, or malicious employees).

                                                       2
In the September 27, 2000 response (Appendix 2) to the draft report from the Assistant
Secretary for Policy, Management and Budget (AS/PMB), the AS/PMB concurred with the
recommendations. The AS/PMB further stated that the CIO will, by December 15, 2000,
ensure that the Department establishes and implements a requirement to document the periodic
threat review process that includes written notifications to bureaus concerning the review,
analysis, assessments, and implementation of corrective actions (Recommendation 1). It further
stated that by December 15, 2000, the requirement to document the periodic threat review
process will be included in the Department's Critical Infrastructure Protection Plan and
submitted to the National Critical Assurance Office for review by the ERT (Recommendation
2).

Based on the response, we consider both recommendations resolved but not implemented
(Appendix 3). Accordingly, the unimplemented recommendation will be referred to your
Office of Financial Management for tracking of implementation.

Scope of Review
Our review was conducted as part of a Governmentwide four-phase PCIE review on
implementation of PDD-63. To accomplish our review, we conducted interviews with the
Critical Infrastructure Assurance Officer and his staff, the CIO, and other IT officials to obtain
information concerning the critical infrastructures and planning processes used by the
Department. The four phases will review the adequacy of:

    # Agency planning and assessment activities for protecting critical physical and cyber-
      based infrastructures (Phase I).
    # Agency implementation activities for protecting cyber-based infrastructures (Phase 2).
    # Agency planning and assessment activities for protecting critical non-cyber
      infrastructures (Phase 3).
    # Agency implementation activities for protecting critical non-cyber infrastructures.
      (Phase 4).

The results of our review of the Departmental cyber-based planning efforts under Phase 1 and
the review steps that were developed by the PCIE working group are detailed in Appendix 1.
The results of the review will also be sent to the PCIE working group for inclusion in a
governmentwide report concerning the security of Federal critical infrastructures.

Background
Advances in information technology have resulted in increasing the automation and interlinking
of physical and cyber-based infrastructures and have created new vulnerabilities to intentional



                                                 3
or unintentional infrastructure attacks from human error, weather, and equipment failure that
could significantly harm the Nation’s economy and military capability.

PDD-63, which was signed on May 22, 1998, ordered the strengthening of the Nation’s
defense against terrorist acts, weapons of mass destruction, and assaults on critical
infrastructures that would diminish the ability of the Federal Government to protect the national
security and ensure general public health and safety; of the state and local governments to
maintain order and deliver minimum essential public services; and of the private sector to ensure
the orderly functioning of the economy and the delivery of essential telecommunications, energy,
financial, and transportation services. PDD-63 further directs the Federal Government to
eliminate any significant vulnerability to both physical and cyber attacks on its critical
infrastructures by May 22, 2003.

The Department’s CIPP identified Hoover Dam, Shasta Dam, Grand Coulee Dam, and the
Main Interior Building and the Bureau of Reclamation’s Supervisory Control and Data
Acquisition computer system supporting dam operations as national critical infrastructures.

Since this letter’s recommendations are considered resolved, no further response to the Office
of Inspector General is required ( see Appendix 3).

This advisory letter will be listed in our semiannual report to Congress, as required by Section
5(a) of the Inspector General Act (5 U.S.C. app.3).




                                                4
                                                           SCHEDULE OF REVIEW RESULTS

                                                                Cause                         Estimated Estimated Estimate is
                                                          If "No" Answer in                    Date of    Cost of   in Agency
          Review Step                     Yes   No    N/A     Column (d)            Effect    Resolution Resolution CIP Budget     Recommendation
             (a)(b)                       (c)   (d)   (e)         (f)                 (g)         (h)       (i)         (j)             (k)

 A.1 Has agency completed its
Critical Infrastructure Protection Plan
                                          X
(CIPP)?

 A.2 If the agency does not plan to
complete a CIPP, is it because it is
                                                      X
not a Phase I/II agency subject to
Presidential Decision Directive (PDD)
63?

 A.3 Identify agency's cyber-based
assets that may be subject to PDD
                                                       X
63. Does agency management
agree that any of the assets should
be subject to PDD 63?
 A.4 For agencies that have
prepared a CIPP, did the Critical
                                          X
Infrastructure Coordination Group
sponsor the required "expert review
process" for the CIPP? If an Expert
Review Team (ERT) review was not
performed, then determine the
"cause" and continue the remaining
steps.

A.5 If the Critical Infrastructure
Coordination Group completed the
                                                X          The Department
                                                           incorporated many of
                                                                                        N/A     Jul-00      N/A        N/A       Ensure that the CIPP is
                                                                                                                                 resubmitted to the ERT for
expert review and found the CIPP to                        the Expert Review                                                     approval.
be deficient, has the agency taken                         Team's suggested
adequate remedial action(s)?                               improvements and has
                                                           made further revisions
                                                           during our audit.
 A.6 Did the CIPP require the
appointment of a Chief Infrastructure
                                          X
Assurance Officer (CIAO), who will
have overall responsibility for
protecting the agency's critical
infrastructure?

A.7 Has the agency appointed a
CIAO?
                                          X



                                                                                    5
                                                                Cause                       Estimated Estimated Estimate is
                                                          If "No" Answer in                  Date of    Cost of   in Agency
          Review Step                     Yes   No    N/A     Column (d)          Effect    Resolution Resolution CIP Budget   Recommendation
             (a)(b)                       (c)   (d)   (e)         (f)               (g)         (h)       (i)         (j)           (k)

 A.8 Does the CIPP require the
agency to identify its cyber-based
                                          X
Mission Essential Infrastructure
(MEI)?

 A.9 Does the CIPP identify a
milestone for identifying its
                                                X         The identification of
                                                          cyber-based MEI was
                                                                                      N/A      N/A        N/A        N/A            N/A

cyber-based MEI?                                          completed prior to
                                                          developing the CIPP.
 A.10 Does the agency CIPP require
an evaluation of new assets to
                                          X
determine whether they should be
included in its MEI?

A.11 Does the CIPP require the
agency to perform vulnerability
                                          X
assessments of its cyber-based
MEI?

A.12 Does the CIPP require periodic
updates of the assessments?
                                          X
 A.13 Does the CIPP identify
milestones for completing the
                                          X
vulnerability assessments?

 A.14 Does the CIPP require risk
mitigation relative to potential damage
                                          X
stemming from each vulnerability?
 A.15 Does the CIPP provide for
periodic testing and reevaluation of
                                          X
risk mitigation steps (policies,
procedures, and controls) by
agency management?

 A.16 Does the CIPP provide a
milestone for taking steps to mitigate
                                          X
risks?

A.17 Does the CIPP require
establishment of an emergency
                                          X
management program?




                                                                                  6
                                                               Cause                           Estimated Estimated Estimate is
                                                         If "No" Answer in                      Date of    Cost of   in Agency
          Review Step                    Yes   No    N/A     Column (d)              Effect    Resolution Resolution CIP Budget   Recommendation
             (a)(b)                      (c)   (d)   (e)         (f)                   (g)         (h)       (i)         (j)           (k)

 A.18. If the answer to A.17 is yes,
does the CIPP specify that the
                                         X
emergency management program
includes:
a) Incorporation of indications and
warnings?

b) Incident collection, reporting, and
analysis?
                                         X
c) Response and continuity of
operation plans?
                                         X
d) A system for responding to
significant infrastructure attacks
                                         X
while the attacks are under way,
with the goal of isolating and
minimizing damage?

e) Notification to OIG criminal
investigators of infrastructure
                                               X         Although the CIPP did
                                                         not include a
                                                                                         N/A      N/A        N/A        N/A            N/A

attacks?                                                 requirement to notify the
                                                         OIG, the Departmental
                                                         Manual (375 DM 19.9,
                                                         B(2)) requires the
                                                         notification.
 A.19 Does the CIPP require
establishment of a system for
                                               X         Although the CIPP did
                                                         not include a
                                                                                         N/A      N/A        N/A        N/A            N/A

quickly reconstituting minimum                           requirement to establish
required capabilities following a                        a system for quickly
successful infrastructure attack?                        reconstituting minimum
                                                         required capabilities
                                                         following a successful
                                                         infrastructure attack, it
                                                         was required by the
                                                         Departmental Manual
                                                         (375 DM 19.4, H and K)
                                                         to do so.

 A.20 Does the CIPP identify a
milestone for establishing the
                                         X
emergency management program?




                                                                                     7
                                                              Cause                           Estimated Estimated Estimate is
                                                        If "No" Answer in                      Date of    Cost of   in Agency
           Review Step                  Yes   No    N/A     Column (d)              Effect    Resolution Resolution CIP Budget   Recommendation
              (a)(b)                    (c)   (d)   (e)         (f)                   (g)         (h)       (i)         (j)           (k)

 A.21 Does the CIPP require a
review of existing policies and
                                              X         Departmental officials
                                                        implemented a
                                                                                        N/A      N/A        N/A        N/A            N/A

procedures to determine whether                         requirement for a
the agency should revise them to                        review that ensures
reflect PDD 63 requirements?                            that PDD 63
                                                        requirements are
                                                        followed. In addition,
                                                        this review is required
                                                        by the Departmental
                                                        Manual (375 DM 19.4,
                                                        C).

A.22 Does the CIPP identify a
milestone for reviewing existing
                                              X         During our review,
                                                        Department officials
                                                                                        N/A     Jul-00      N/A        N/A            N/A

policies and procedures?                                implemented a
                                                        requirement for annual
                                                        milestones.
 A.23. Does the CIPP require the
agency to ensure that security
                                              X         Although the CIPP did
                                                        not include a
                                                                                        N/A      N/A        N/A        N/A            N/A

planning procedures are being                           requirement to ensure
incorporated into the basic design of                   that security planning
new programs that include critical                      procedures were being
infrastructures, including provisions                   incorporated into the
for:                                                    basic design of new
                                                        programs that include
a) Risk management and                                  critical infrastructures,
assessments?                                            this is required by the
                                                        Departmental Manual
                                                        (375 DM 19.4,B).

b) Security plans for IT systems?       X
c) Security for command, control,
and communications?
                                        X
d) Identification of classified or
sensitive information?
                                        X
e) Awareness and training
measures to be taken for each
                                        X
program?




                                                                                    8
                                                                 Cause                             Estimated Estimated Estimate is
                                                           If "No" Answer in                        Date of    Cost of   in Agency
           Review Step                     Yes   No    N/A     Column (d)                Effect    Resolution Resolution CIP Budget   Recommendation
              (a)(b)                       (c)   (d)   (e)         (f)                     (g)         (h)       (i)         (j)           (k)

A.24 Does the CIPP identify a
milestone for establishing
                                                 X         Although the CIPP did
                                                           not identify a milestone
                                                                                             N/A      N/A        N/A        N/A            N/A

procedures to ensure that the                              for establishing
agency incorporates security                               procedures to ensure
planning into the basic design of                          that the agency
new programs?                                              incorporates security
                                                           planning into the basic
                                                           design of new
                                                           programs, it is required
                                                           by the Departmental
                                                           Manual (375 DM 19.4,
                                                           B).

 A.25 Does the CIPP require the
agency to incorporate its CIP
                                                 X         The Department's CIPP
                                                           does not require the
                                                                                             N/A      N/A        N/A        N/A            N/A

functions into its strategic planning                      agency to include
and performance measurement                                Critical Infrastructure
frameworks?                                                Planning functions in its
                                                           strategic plan. This is
                                                           because only one
                                                           (BOR) of the eight
                                                           bureaus is directly
                                                           involved with Critical
                                                           Infrastructure and then
                                                           only in a small part of its
                                                           overall program. The
                                                           strategic plan
                                                           concentrates on the
                                                           major Departmental
                                                           goals for protecting the
                                                           environment, preserving
                                                           natural and cultural
                                                           resources, providing
                                                           recreation, conducting
                                                           scientific studies, and
                                                           meeting responsibilities
                                                           to American Indians.
 A.26 Does the CIPP identify a
milestone for incorporating its critical
                                                 X         See response to A.25.             N/A      N/A        N/A        N/A            N/A

infrastructure protection functions
into its strategic planning and
performance measurement
frameworks?




                                                                                         9
                                                             Cause                        Estimated Estimated Estimate is
                                                       If "No" Answer in                   Date of    Cost of   in Agency
          Review Step                  Yes   No    N/A     Column (d)            Effect   Resolution Resolution CIP Budget   Recommendation
             (a)(b)                    (c)   (d)   (e)         (f)                 (g)        (h)       (i)         (j)           (k)

 A.27 Does the CIPP require
agencies to identify resource and
                                       X
organizational requirements for
implementing PDD 63?

 A.28 Does the CIPP identify a
milestone for identifying resource
                                             X         The milestone will be
                                                       established pending the
                                                                                  N/A       Sep-00    $270,000     N/A            N/A

and organizational requirements for                    completion of the
implementing PDD 63?                                   vulnerability
                                                       assessment work that
                                                       is in progress.
 A.29 Does the CIPP require the
agency to establish a program to
                                       X
ensure that it has the personnel and
skills necessary to implement a
sound infrastructure protection
program?

 A.30 Does the CIPP identify a
milestone for establishing a program
                                       X
that would ensure that the agency
has the personnel and skills
necessary to implement a sound
infrastructure protection program?

 A.31 Does the CIPP require the
agency to establish effective CIP
                                       X
coordination with other applicable
entities (foreign, state, and local
governments and industry)?
 A.32 Does the CIPP identify a
milestone for establishing effective
                                       X
CIP coordination with other
applicable entities (foreign, state,
and local governments and
industry)?

 A.33 Are the agency's plans for the
continuous / periodic review of its
                                       X
threat environment:

a) Adequate?




                                                                                 10
                                                             Cause                                       Estimated Estimated Estimate is
                                                       If "No" Answer in                                  Date of    Cost of   in Agency
          Review Step                  Yes   No    N/A     Column (d)                    Effect          Resolution Resolution CIP Budget     Recommendation
             (a)(b)                    (c)   (d)   (e)         (f)                         (g)               (h)       (i)         (j)             (k)

b) Being implemented by the
agency?
                                             X         The Departmental
                                                       Manual (375 DM 19.8)
                                                                                   We believe that
                                                                                   without adequate
                                                                                                                                            Ensure that the Department
                                                                                                                                            establishes and implements
                                                       requires the Office of      documentation of                                         a requirement to document
                                                       Information Resources       the review                                               the periodic threat review
                                                       Management to conduct       process, there is a                                      process that includes
                                                       periodic reviews.           lack of                                                  written notifications to
                                                       Departmental IT officials   accountability for                                       bureaus concerning the
                                                       told us that these          the actions taken.                                       review, analysis,
                                                       reviews were                                                                         assessments, and
                                                       performed for each                                                                   implementation of
                                                       bureau but were not                                                                  corrective actions.
                                                       documented. We
                                                       believe that the review
                                                       process should have
                                                       included written
                                                       notifications to bureaus
                                                       concerning the review,
                                                       analysis, assessments,
                                                       and implementation of
                                                       corrective actions and
                                                       results of the review.

 B.1. Has the agency identified the
following cyber-based MEI:
                                       X
a) People? (Staff, management,
security, and executives necessary
to plan, organize, acquire, deliver,
support, and monitor mission-related
services, information systems, and
facilities, including the groups and
individuals external to the
organization involved in the
fulfillment of the organization's
mission.)
b) Technology? (All hardware and
software, connectivity,
                                       X
countermeasures, and/or
safeguards that are utilized in
support of the core process.)

c) Applications? (All application
systems, internal and external,
                                       X
utilized in support of the core
process.)




                                                                                        11
                                                                Cause                          Estimated Estimated Estimate is
                                                          If "No" Answer in                     Date of    Cost of   in Agency
           Review Step                    Yes   No    N/A     Column (d)              Effect   Resolution Resolution CIP Budget    Recommendation
              (a)(b)                      (c)   (d)   (e)         (f)                   (g)        (h)       (i)         (j)            (k)

d) Data? (All data, electronic / hard
copy, and information required to
                                          X
support the core process. These
data include numbers, characters,
images, or other methods of
recording in a form that can be
assessed by a human or input into a
computer, stored and processed
there, or transmitted on some
digital/communications channel.)

e) Facilities? (All facilities required
to support the core processes,
                                          X
including the resources to house
and support information technology
resources, and the other resource
elements defined above in question
B.1.)
 B.2a Were the criteria used to
identify DOI’s MEI consistent with the
                                          X
criteria used by the CIAO to identify
agency MEI? (See page 1, footnote
1, for CIAO definition of agency MEI.)

 B.2b Did the agency use the CIAO
infrastructure asset evaluation
                                                X         The CIPP was prepared N/A
                                                          in June 1999, which
                                                                                               N/A       N/A        N/A           N/A

survey to identify its MEI assets?                        was before the
                                                          effective date of the
                                                          criteria (January 2000).

 B.3 Evaluate the adequacy of the
agency's efforts to identify MEI and
                                          X
MEI interdependencies with
applicable Federal agencies, state
and local government activities, and
industry:

a) Has the agency identified assets
consistent with the MEI as defined in
question B.2?
b) Did the agency use the results of
its Year 2000 (Y2K) work in
                                          X
identifying the MEI?




                                                                                      12
                                                               Cause                             Estimated Estimated Estimate is
                                                         If "No" Answer in                        Date of    Cost of   in Agency
          Review Step                    Yes   No    N/A     Column (d)                 Effect   Resolution Resolution CIP Budget    Recommendation
             (a)(b)                      (c)   (d)   (e)         (f)                      (g)        (h)       (i)         (j)            (k)

c) Did the asset identification
process include a determination of
                                         X
its estimated replacement costs,
planned life cycle, and potential
impact to the agency if the asset is
rendered unusable?

d) Has the agency established
milestones for identifying and
                                         X
reviewing its MEI?
e) Is the agency meeting its
milestones?
                                         X
 C.1 Has the agency performed and
documented an initial vulnerability
                                               X         Pending the completion
                                                         of the vulnerability
                                                                                  N/A              Sep-00   See A. 28         N/A   N/A

assessment and developed                                 assessment work that
redemption plans for its MEI?                            is in progress.

 C.2 Did the vulnerability
assessments address the threat
                                                     X   Pending the completion
                                                         of the vulnerability
                                                                                  N/A               N/A     N/A               N/A   N/A

type and magnitude of the threat, the                    assessment work that
source of the threats, existing                          is in progress.
protection measures, the probability
of occurrence, damage that could
result from a successful attack, and
the likelihood of success if such an
attack occurred?
C.3 Did the redemption plans
address the vulnerabilities found
                                                     X   Pending the completion
                                                         of the vulnerability
                                                                                  N/A              Oct-00   N/A         N/A         N/A

during the assessment?                                   assessment work that
                                                         is in progress.

 C.4 Has the agency determined the
level of protection currently in place
                                                     X   Pending the completion
                                                         of the vulnerability
                                                                                  N/A              Aug-00   N/A         N/A         N/A

for its MEI?                                             assessment work that
                                                         is in progress.
 C.5 Has the agency identified the
actions that must be taken before it
                                                     X   Pending the completion
                                                         of the vulnerability
                                                                                  N/A              Aug-00   N/A         N/A         N/A

can achieve a reasonable level of                        assessment work that
protection for its MEI?                                  is in progress.

 C.6 If the answer to C. 5 is yes,
has the agency developed a related
                                                     X   Pending the completion
                                                         of the vulnerability
                                                                                  N/A              Oct-00   N/A         N/A         N/A

implementation plan and mechanism                        assessment work that
to monitor such implementation?                          is in progress.




                                                                                        13
                                                                Cause                             Estimated Estimated Estimate is
                                                          If "No" Answer in                        Date of    Cost of   in Agency
          Review Step                     Yes   No    N/A     Column (d)                 Effect   Resolution Resolution CIP Budget    Recommendation
             (a)(b)                       (c)   (d)   (e)         (f)                      (g)        (h)       (i)         (j)            (k)

 C.7 Has the agency delegated
responsibility for vulnerability
                                          X
assessments to the agency CIO?

C.8 Has the agency adopted a
multi-year funding plan that
                                                X         BOR has identified
                                                          estimated funding
                                                                                  N/A               Oct-00   N/A       N/A           N/A

addresses the identified threats?                         needs for Its security-
                                                          related issues. These
                                                          will need further
                                                          refinement once results
                                                          of Sandia National
                                                          Laboratory (SNL)
                                                          recommendations have
                                                          been evaluated.
 C.9 Has the agency reflected the
cost of implementing a multi-year
                                                X         Estimated adjustments
                                                          to the FY 2001 budget
                                                                                   N/A              Sep-00   N/A       N/A           N/A

vulnerability redemption plan in its FY                   have been made.
2001 budget submission to the                             Determination of more
Office of Management and Budget?                          precise requirements
                                                          will result from the
                                                          evaluation of the SNL
                                                          recommendations.

 C.10 Did the vulnerability
assessments query national threat
                                                      X   Pending the completion
                                                          of the vulnerability
                                                                                   N/A              Sep-00   N/A       N/A           N/A

guidance for international, domestic,                     assessment work that
and state-sponsored                                       is in progress.
terrorism/information warfare (e.g.,
from the Department of Defense,
FBI, NSA, and other Federal and
state agencies)?

 C.11 Has the agency prioritized the
threats according to their relative
                                                      X   Pending the completion
                                                          of the vulnerability
                                                                                   N/A              Sep-00   N/A       N/A           N/A

importance?                                               assessment work that
                                                          is in progress.
 C.12 Has the agency assessed the
vulnerability of its MEI to possible
                                          X
failures that could result from
interdependencies with applicable
Federal agencies, state and local
government activities, and private
sector providers of
telecommunications, electrical
power, and other infrastructure
services?



                                                                                         14
                                                            Cause                             Estimated Estimated Estimate is
                                                      If "No" Answer in                        Date of    Cost of   in Agency
         Review Step                  Yes   No    N/A     Column (d)                 Effect   Resolution Resolution CIP Budget    Recommendation
            (a)(b)                    (c)   (d)   (e)         (f)                      (g)        (h)       (i)         (j)            (k)

 C.13 Do the processes used to
identify and reflect new threats to
                                      X
the agency's MEI appear adequate?

 C.14 Do the results of the
vulnerability assessments
                                                  X   The preparation of
                                                      security policies and
                                                                               N/A              Sep-00   N/A       N/A           N/A

necessitate revisions to agency                       procedures are
policies that govern the management                   currently ongoing, along
and protection of agency MEI?                         with the vulnerability
                                                      assessment.
 C.15 Did the results of the ERT
coincide with answers derived from
                                      X
questions A.1 through C.14?




                                                                                     15
                                                                    APPENDIX 3

    STATUS OF EVALUATION REPORT RECOMMENDATIONS

Recommendation
   Reference         Status                       Action Required

   1 and 2       Resolved; not   No further response to response to the Office of
                 implemented     Inspector General is required. The
                                 recommendations will be referred to your Office
                                 of Financial Management for tracking of
                                 implementation.




                                     16
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL



                     Internet Complaint Form Address


                   http://www.oig.doi.gov/hotline_form.html


                  Within the Continental United States
U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W.                                    1-800-424-5081 or
Mail Stop 5341 - MIB                                   (202) 208-5300
Washington, D.C. 20240-0001
                                                       TDD for hearing impaired
                                                       (202) 208-2420

                  Outside the Continental United States

                                    Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                     Pacific Region

U.S. Department of the Interior                        (671) 647-6060
Office of Inspector General
Guam Field Pacific Office
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Agana, Guam 96911
           H OT LI N E
U.S. Department of the Interior
Office of Inspector General
1849 C Street, NW
Mail Stop 5341- MIB
Washington, D.C. 20240-0001

Toll Free Number
      1-800-424-5081

Commercial Numbers
   (202) 208-5300
   TDD (202) 208-2420
